)

19-3665
Montgomery v. Holland

UNITED STATES COURT OF APPEALS
FOR THE SECOND CIRCUIT

SUMMARY ORDER
RULINGS BY SUMMARY ORDER DO NOT HAVE PRECEDENTIAL EFFECT. CITATION TO A SUMMARY
ORDER FILED ON OR AFTER JANUARY 1, 2007, IS PERMITTED AND IS GOVERNED BY FEDERAL RULE OF
APPELLATE PROCEDURE 32.1 AND THIS COURT’S LOCAL RULE 32.1.1. WHEN CITING A SUMMARY ORDER
IN A DOCUMENT FILED WITH THIS COURT, A PARTY MUST CITE EITHER THE FEDERAL APPENDIX OR AN
ELECTRONIC DATABASE (WITH THE NOTATION “SUMMARY ORDER”). A PARTY CITING TO A SUMMARY
ORDER MUST SERVE A COPY OF IT ON ANY PARTY NOT REPRESENTED BY COUNSEL.

At a stated term of the United States Court of Appeals for the Second Circuit,
held at the Thurgood Marshall United States Courthouse, 40 Foley Square, in the City of
New York, on the
two thousand twenty.
PRESENT:
DEBRA ANN LIVINGSTON,
Chief Judge,
JOSE A. CABRANES,
GERARD E. LYNCH,
Circuit Judges.
Wilhelmina “Mina” Montgomery,
Plaintiff-Appellant,
19-3665

v.
NBC Television, Lionsgate Entertainment
Corporation, Scott Abbott, Cinestar Pictures,
LLC, James Wong, Robert Bernacchi, Alixandre
Witlin, Joshua D. Maurer, Mariel Saldana, Zoe
Saldana, Netflix, Inc., City Entertainment,
Kippster Entertainment, Lionsgate Television,
NBC Universal Media, LLC,
Defendants-Appellees,
Agnieszka Holland, David A. Stern, Time
Warner, Inc., Cicely Saldana, Tom Patricia,
Federation Entertainment, Liaison Films, Kasia
Adamik,

Defendants.

FOR PLAINTIFF-APPELLANT:

Wilhelmina ’’Mina”
Montgomery, pro se,
Brooklyn, NY.

FOR DEFENDANTS -APPELLEES:

Tom J. Ferber, Ross M.
Bagley, Pryor Cashman LLP,
New York, NY.

Appeal from a judgment of the United States District Court for the Southern District of
New York (Broderick, J.).
UPON DUE CONSIDERATION, IT IS HEREBY ORDERED, ADJUDGED, AND
DECREED that the judgment of the district court is AFFIRMED.
Appellant Wilhelmina “Mina” Montgomery, proceeding pro se, sued companies and
individuals associated with a two-part miniseries called “Rosemary’s Baby,” alleging that the
miniseries infringed on her copyright on two short stories, Drowning Paris in Mississippi Tears
or The Groaning Road: The True Story (the “True Story”) and Drowning Paris in Mississippi
Tears or The Groaning Road: A Synopsis of the Fictionalized Story (the “Fictionalized Story”).
The district court dismissed the complaint, finding that no infringement occurred because the
miniseries was not substantially similar to the short stories. Montgomery appeals the dismissal
moves to strike the appellees’ brief, and moves to view purportedly sealed documents.1 We

1

Montgomery’s motion to strike appellees’ brief is denied; the brief was filed in accordance with
our scheduling order. In addition, Montgomery’s motion to view “sealed documents” is moot,
because (despite the notation on the docket) there are no sealed documents in this case. The items
in question are not retrievable from the electronic docket because they are not ordinary documents
but physical exhibits such as a copy of the Ira Levin novel and DVDs of the Roman Polanski film
2

assume the parties’ familiarity with the underlying facts, the procedural history of the case, and
the issues on appeal.
We review de novo both a district court’s grant of a motion to dismiss under Fed. R. Civ.
P. 12(b)(6) and its grant of a motion for judgment on the pleadings pursuant to Fed. R. Civ. P.
12(c). See Bank of New York v. First Millennium, Inc., 607 F.3d 905, 922 (2d Cir. 2010) (Rule
12(c)); Nicosia v. Amazon.com, Inc., 834 F.3d 220, 230 (2d Cir. 2016) (Rule 12(b)(6)). “In
deciding Rule 12(c) motions, we employ the same standard applicable to Rule 12(b)(6) motions to
dismiss, accepting all factual allegations in the Complaint as true and drawing all reasonable
inferences in the nonmoving party’s favor.” Vega v. Hempstead Union Free Sch. Dist., 801 F.3d
72,78 (2d Cir. 2015) (internal quotation marks and alterations omitted). To survive either motion,
a plaintiffs complaint “must contain sufficient factual matter, accepted as true, to state a claim to
relief that is plausible on its face.” WC Capital Mgmt., LLC v. UBS Secs., LLC, 711 F.3d 322,
328 (2d Cir. 2013). In addition to the complaint, we may consider “any written instrument
attached to it as an exhibit or ... documents incorporated in it by reference.” Cortec Indus., Inc.
v. Sum Holding L.P., 949 F.2d 42,47 (2d Cir. 1991). Pro se filings are liberally construed to raise
the strongest arguments they suggest. See Hill v. Curcione, 657 F.3d 116, 122 (2d Cir. 2011).
To state a claim for copyright infringement, a “copyright owner must demonstrate that
(1) the defendant has actually copied the plaintiffs work; and (2) the copying is illegal because a
substantial similarity exists between the defendant’s work and the protectible elements of
plaintiffs.”

Yurman Design, Inc. v. PAJ, Inc., 262 F.3d 101, 110 (2d Cir. 2001) (internal

and the miniseries itself. The record reflects that Montgomery was served with the items in
question.
3

quotation marks omitted) (emphasis in original). Here, the district court only considered the issue
of substantial similarity.2 See Walker v. Time Life Films, Inc., 784 F.2d 44, 52 (2d Cir.1986)
(declining to decide the issue of actual copying because no substantial similarity existed between
the two works).
The test for substantial similarity is “whether, in the eyes of the average lay observer, [one
work is] substantially similar to the protectible expression in the [other].” Williams v. Crichton,
84 F.3d 581, 587 (2d Cir. 1996). One cannot copyright ideas, scenes a faire,3 or stock characters
and themes. Id. at 587-88. In evaluating substantial similarity, “we are principally guided by
comparing the contested design’s total concept and overall feel with that of the allegedly infringed
work.” Peter F. Gaito Architecture LLC v. Simone Dev. Corp., 602 F.3d 57, 66 (2d Cir. 2010)
(internal quotation marks omitted). In addition, we consider commonalities in the works’ “theme,
Williams, 84 F.3d at 588.

characters, plot, sequence, pace, and setting.”

The absence of

substantial similarity can be decided as a matter of law on a motion to dismiss. Peter F. Gaito
Architecture LLC, 602 F.3d at 64.
Here, the “total concept and overall feel” of the miniseries is very different from the two
short stories. Id. at 66 (internal quotation marks omitted). The True Story is a naturalistic
character sketch that closes with the mysterious disappearance of the narrator’s close friend after

2 Accordingly, the district court’s description of Montgomery’s stories as “unpublished” played
no role in its analysis, and any error on that point would have been harmless. Likewise,
Montgomery’s arguments regarding Holland’s access to her work miss the mark because access is
probative of actual copying, but not substantial similarity. See Boisson v. Banian, Ltd, 273 F.3d
262, 267-68 (2d Cir. 2001).
3 Scenes a faire are “sequences of events which necessarily follow from a common theme” or
“plot situation[].” Reyher v. Children’s Television Workshop, 533 F.2d 87, 91 (2d Cir. 1976).
4

he moves in with a pair of elderly Nazis. The Fictionalized Story appears to be the opening
portion of a Nazi-hunting thriller. By contrast, the miniseries is a horror story in which a group
of Satanists employ supernatural powers to commit gruesome murders, and rape and impregnate
the protagonist.4
Montgomery argues that the district court failed to apply the “pattern” test, under which,
she contends, the works are substantially similar.

This test conceives of a copyright as

“covering] the ‘pattern’ of [a] work . . . the sequence of events, and the development of the
interplay of characters.” Warner Bros. Inc. v. Am. Broad. Cos., Inc., 720 F.2d 231, 240 n.7 (2d
Cir. 1983) (quoting Zechariah Chafee, Jr., Reflections on the Law of Copyright, 45 Colum. L. Rev.
503, 513-14 (1945)) (ellipses in original). She also argues that the district court overlooked
significant similarities between the miniseries and her short stories, including the “plot, the
verbatim dialogue within similar scenes spoken by similar characters in a similar settings, [and]
the exact dates in the .. . works.” Appellants’ Br. at 24. Given the absence of any recognizable
similarity between the protectable elements of the works, these arguments are unavailing.
A review of the three works at issue in this case reveals that their plots are entirely
dissimilar. Montgomery identified common plot elements in her amended complaint—including
an interracial friendship, an investigation, a mysterious disappearance, and an incident involving
a strange photograph. But her list merely “emphasizes random similarities scattered throughout
the works,” and such a list “cannot support of finding of substantial similarity because it fails to

4 Although the miniseries is based largely on Ira Levin’s 1967 novel Rosemary’s Baby and the
subsequent 1968 theatrical motion picture of the same name, directed by Roman Polanski, the
district court did not review those works or consider their relationship to the miniseries, since the
question of copying was not before it.
5

address the underlying issue: whether a lay observer would consider the works as a whole
substantially similar to one another.” Williams, 84 F.3d at 590 (internal quotation marks omitted).
The portions of dialogue that Montgomery identified as “verbatim” in her complaint are limited to
isolated word choices, short common phrases, and purportedly similar expressions of common
ideas, such as the concept of feeling transported in time. But copyright protections “extendf] only
to those components of a work that are original to the author”—that is, those that are
“independently created by [the] author” and “come[] from the exercise of the creative powers of
the author’s mind.” Boisson v. Banian, Ltd, 273 F.3d 262, 268 (2d Cir. 2001). These isolated
words, phrases, and concepts lack the originality required for copyright protection. Moreover,
the settings of cafes, bridges crossing the Seine, apartments, and parties are all scenes a faire
arising from the works’ respective depictions of Americans living in Paris, and therefore are not
protectable. Cf. Williams, 84 F.3d at 589 (while two works shared “a setting of a dinosaur zoo or
adventure park, with electrified fences, automated tours, dinosaur nurseries, and uniformed
workers, these settings are classic scenes a faire that flow from the uncopyrightable concept of a
dinosaur zoo”). Finally, Montgomery’s allegations regarding common significant dates in the
works are difficult to follow. She largely appeared to draw connections between dates or spans
of time appearing in the miniseries (or associated with its production) and events in her own life,
rather than within her copyrighted work. Montgomery also appeared to argue that all three works
refer to a disappearance that occurred in the 1980s. Like the other alleged similarities, this is a
trivial element of the works and is not an original expression protectable by copyright. See
Boisson, 273 F.3d at 268.
In sum, the district court properly concluded that no reasonable jury could find that the
6

similarities between the works were sufficient to prove “a substantial similarity exists between the
[miniseries] and the protectible elements of [the short stories].” Yurman Design, Inc., 262 F.3d
at 110. The absence of substantial similarity is dispositive of Montgomery’s copyright claims,
regardless of the identity of the defendants.

Accordingly, to the extent that Montgomery

challenges the district court’s decisions dismissing unserved defendants and striking her second
amended complaint, which attempted to add defendants,- any error by the district court was
harmless. Montgomery’s arguments regarding the time she was granted to file her brief in this
Court have no bearing on whether the district court erred in dismissing her complaint and do not
compel a different result: she does not identify any arguments that she was unable to raise in her
brief, and she did not request leave to file an amended complaint.
We have considered all of Montgomery’s remaining arguments and find them to be without
merit. Accordingly, we AFFIRM the judgment of the district court, DENY Montgomery’s
motion to strike the appellees’ brief, and DENY as moot Montgomery’s motion for us to consider
purportedly sealed records in the district court docket and her motion to view the same.
FOR THE COURT:
Catherine O’Hagan Wolfe, Clerk of Court

7

APPENDIX B
OPINION AND ORDER, U.S. District Court, SDNY, Montgomery v. Holland, et al,
No. 17-3489 VSB

wotac A.x/n-v-uo^o^-vciD L/uuuiiiem 09 mcu wwjw»*-»

"

united states district court
SOUTHERN DISTRICT OF NEW YORK

-X

USDCSDNY
DOCUMENT
ELECTRONIC ,LY FILED ,

DOC&!p£
DATE FILEEL

WILHELMINA "MINA” MONTGOMERY,
Plaintiff,

9/30/2019

I7-CV-3489 (VSB)

- against -

OPINION & ORDER

AGNIESZKA HOLLAND, et at.,
Defendants.
-X
Appearances:
Wilhelmina "Mina” Montgomery
New York, NY
Prose Plaintiff
Tom J. Fetber
Ross McClintic Bagley
Pryor Cashman LLP
New York, NY
Counsel for Defendants
VERNON S- BRODERICK. United States District Judge:
Pro se Plaintiff Wilhelmina “Mina” Montgomery brings this copyright infringement
action against twenty (20) Defendants involved in the production of a mini-series entitled
Rosemary’s Baby (“the Miniseries”), which Plaintiff alleges infringes her copyright in two
unpublished short stories. Before me is Defendants’ motion for judgment on the pleadings
pursuant to Rule 12(c) and Defendant Cinestar Pictures, LLC’s motion to dismiss pursuant to
Rule 12(b)(6). Because I find that the Miniseries is not substantially similar to Plaintiffs works
as a matter of law, Defendants’ motions are GRANTED.

Scanned with CamScanner

Case 1:17<\M)3489*V5B uocumem o»

nicu w«"***" —

I.
Background1
Plaintiffaltegcs she is the author of two copyrighted short stories, entnied “Drowning
Paris m Mississippi Tears OR The Groaning Road

-The True Story” (the "True Story”), and

“Drowning Paris in Mississippi Tears OR The Groaning Road
“Fictionalized Story.” ondioge

- The Fictionalized Story,” (the

(her, “the Short Stories"). (Am. Compl., Doc. 9 at 6,)2.She

i« of these stones to Agnieszka Holland, a director and an
alleges that in 2012, she e-mailed cop
acquaintance of Plaintiff, who responded by email to her, complimenting and critiquing the
miseries entitled Rosemary's Baby (“the
stories. (Id at 6,20-25.) Holland directed ami
Miniseries”). (Hat 2(5). The other Defendants are scriptwriters and producers of the
Miniseries. (Id, Doc, 9 at 2-18.)
Plaintiff alleges that the Miniseries is “largely based on [her] two short stories,” which
she attaches to her Complaint (H, Doc. 9 at 6; Doc. 9-1 at 64- 66, Doc . 9-2 at 1-26.) She
i, the setting, the storyline, the timeline, exact dates, verbatim
asserts that “many of the characters
developed by (he Plaintiff” inspired the same elements of the Minisenes,
dialogue and dialogue
7), and details these alleged similarities (or, as she refers to them, “resemblances”)
(id, Doc. 9 at
in her complaint (Id at 26-73; Doc. 9-1 at 1-63).

2 “Am. Comp!" refer* 10 PJ1*ntpir

9!*9-forc^ofrcfcreuce^alUtations

Amrodro^mptoint include (he ECF document number and the page number within that document.

Scanned with CamScanner

WWVyillCIH W9

It.

Procedural History

Plaintiff filed her Complaint on May 9,2017. (Dot 1.) On August 29,2017, Plaintiff
requested a 90-day extension of lime to effect service. (Doc. 5.) On August 31,2017,1 issued
an Order of Service that granted this request and directed the Clerk of Court to send Plaintiff the
forms needed to effect service on Defendants through the United States Marshals Service. (Doc.

«.)
Plaintiff indicated that she misunderstood this Order in a letter dated October 17,2017,
(Doc, 8), and filed an Amended Complaint on November 7,2017, (Doc. 9). The Amended
Complaint named the following nineteen (f9) Defendants: Agnieszka Holland (“Holland"),
Scott Abbott (“Abbott"), James Wong (“Wong"), David A. Stem (“Stem"), Robert Bemacchi
(“Beroaeehi”), Cisely Saldana, Marie! Saldana, Zoc Saldana, Alixandre Witlin (“Witlin"),
Joshua D. Maurer (“Maurer"), Tom Patricia (“Patricia”), Lions Gate Entertainment Corporation
(“Lions Gate Entertainment"), NBC Television CNBC”), city Entertainment (“City”), Rippster
Entertainment (“Kippster”), Liaison Films (“Liaison”), Cincslar Pictures (“Cinestar"), Federation
Fn[M,lnmr.i (“Federation”), and Netflbt Entertainment Company (“Netflix”). (Id.)
Accordingly, on November 13,2017,1 altered an Amended Order of Service and vacated my
August 31.2017 Order of Service. (Doc. 10.)
Emm November 2017 through February 2018, the United States Marshals Sendee made
service upon Netflix, City, Wong, Abbott, Zoe Saldana, Mariel Saldana, Bemacchi, and NBC
Television. (See Docs. IS, 17,18,19,21,22,23,33.) TheU.S. Marshals Sendee reported it
Was unable to serve Defendant Liaison Films because the address of service was outside the
country, and service was returned unexecuted as to Cicely Saldana, Cinestar, Lionsgate
Entertainment, Tom Patricia, Federation, Kippster, and David A. Stem. (See Docs. 12,13,14,

Scanned with CamScanner

oase Aii/tWKHO^voa tA^umcm

| MWM *•■*' -

16.20,32,34.)
Ai Plaintiffs request, (Doc. 29). 1 granted a 90-day extension of time to serve the
Defettdants with the assistance of the ll.S. Marshals Service. (Doc. 31.) I also grants
leare to file a Second Amended Complaint naming Lions Gate Television as a Defendant,
On March 6,2018, an Answetxvas fited by Defendants Abbott, Bernaechi.City,
Kippster. Lions Gate Entertainment, Maurer, NBC, Netflix, Mariel Saldana, Zoe Saldana, Witlm.
arid Wong (“Lions Gate Defendants"). (Doc.39.) Those Defendants then filed the instant
motion forjudgment on the pleadings under rule 12(c) on March 22,2018, (Doc. 42), along with
a memorandum of law in support, (Doe. 43). Plaintiffsubmitted two letters opposing
Defendants’ motion, stating that she intended to file a Second Amended Complaint by April 30;
2018, and requesting an extension of time to submit a formal memorandum in opposition to
Defendants' motion, (See Docs. 45,46.) Defendants submitted a letter indicating that they did
not object to an extension but opposed Plaintiff’s request to file a Second Amended Complaint.
(Doe, 47.)

Plaintiff filed her Second Amended Complaint on April 18,2018, naming Lionsgate
Television as well as including nearly one hundred pages of additional material. (Doc. 51.) She
then filed her memorandum of law in opposition to Defendants’motion on April 19,2018,
(Doc. 50.) Defendants filed their reply memorandum on April 30,2018. (Doc. 53.)
On June 11,2018,1 issued an Order directing Plaintiff to provide the Court withpropef
addresses for those Defendants who had not yet been served. (Doe 68.) plaintiff provided a list
of Defendants with addresses of service on June 26,2018. (Doc. 70.) On June 2,2019.1 issued
an order striking the Second Amended Complaint from the record because “Plaintiff had failed to
follow my instructions to only name Lionsgate [sic] Television as a Defendant in is matter.

Scanned with CamScanner

Vrftse x;i/*cv-U34tt9-VSB document 89 Hieauy/ou/xu rayuoui M

(Doc. 76.) In addition, because Plaintiff had failed to provide the Court with service information
for certain Defendants despite three opportunities to do so* I dismissed the following Defendants
from the action: Holland, Stem, Cicely Saldana* Patricia, Federation, Lions Gate Television, and
Kasia Adamik; Lionsgate Television and Adamik were named only in Plaintiff’s Second
Amended Complaint. (Id.) 1 gave Plaintiff three months to serve Liaison Films; a foreign entity,
through the Hague Service Convention or the appropriate international means of service. (Id.)
On the same date, I issued an Amended Order of Service as to Cinestar Pictures at one of the
addresses provided by Plaintiff in Doc. 70. (Doc. 75.) Service was returned unexecuted, (Doc.
78), and! issued another Order of Service as to Cinestar Pictures at a different address
previously provided by Plaintiff, (Doc. 79), and on July 23,2019, service was made upon
Cinestar. (See Doc. 81). On July 23,2019, Cinestar filed a motion to dismiss Plaintiff’s
Amended Complaint pursuant to Rule 12(b)(6), (Doc. 80), along with an affidavit of service
stating that it served the motion on Plaintiff on that day, (Doc. 81). Cinestar did not file a
memorandum of law but incorporated the arguments made in the motion for judgment on the
pleadings and memorandum of law in support filed by the other defendants. (Id)
In letters dated August 10,2019 and August 22,2019, Plaintiff sought an extension of
time to serve Liaison on the basis that she had not yet received confirmation of service of the
summons. (Docs. 84,86.) On August 28,2019,1 issued an order granting an extension of time
to serve Liaison until September 30,2019. (Doc, 85.) In a letter dated September 24,2019,
Plaintiff sought leave for an additional extension of time to serve Liaison until November 30,
2019. (Doc, 88.) In the same letter, Plaintiff informed that that she did not receive Cinestar’s
motion to dismiss until September 19,2019, and reiterated her request that her First Amended
Complaint not be dismissed

Scanned with CamScanner

v^se i:ir-cv-u34«ia-vsb uocumem aa rieu ui/ou..^

I wgH -

III,
A.

Rale 12(b)(6)

To survive a motion to dismiss under Federal Rutc of Civit Procedure 12(b)(6). “a
complaint must contain sufficient factual matter, accepted as true, to ‘state a claim to relief that is
plausible on its face.’" AshcroJ) v. tqbal.S56 US. 662,678 (2009) (quoting Bell All, Carp. v.
Twombly, 550 U.S. 544,570 (2007)). A claim will have “facial plausibility when the plaintiff
pleads factual content that allows the court to draw the reasonable inference that the defendant is
liable for the misconduct alleged.” Id This standard demands “more than a sheer possibility
thata defendant has acted unlawfully;” Id “Plausibility... depends on a host ofconsiderations:
the full factual picture presented by the complaint, the particular cause of action and its elements,
and the existence of alternative explanations so Obvious that they render plaintiffs inferences
unreasonable." D-7 Designs. Inc, v. Old Navy, LLC, 647 F.3d 419,430 (2d Cir. 2011).
In considering a motion to dismiss, a court must accept as true all well-pleaded facts
alleged in the complaint and must draw all reasonable inferences in the plaintiffs favor. Kassner
v. 2nd Am Delicatessen Inc.. 496 F3d 229,237 (2d Cir. 2007). A complaint need not make
“detailed factual allegations," but it must contain more than mere “labels and conclusions” or “a
formulaic recitation oflhe elements ofa cause of action” Iqbal, 556U.S. at 678 (internal
quotation marks omitted). Although all allegations contained in the complaint are assumed tO be
true, this tenet is “inapplicable to legal conclusions," Id. A complaint is “deemed to include any
written instrument attached to it as an exhibit or any statements or documents incorporated in it
by reference.” Chambersv. Time Warner, Inc., 282 F.3d 147,152 (2d Cir. 2002) (quoting/«/7
Audiotexi Network, Inc. v. Am. Tel. & Tel. Co„ 62 F3d 69,72 (2d Cir. 1995)).

Scanned with CamScanner

?!

ut5ui;i/-cv-u^oy-voo uuuumemoa nwuvw-w.*- r

B.

guteUtd

Rule 12(c) provides lhat “[o]ftcr the pleadings are closed—but early enough not to delay
trial—a party may move for judgment on the pleadings.” Fed, R. Civ, P. 12(c). In deciding a
motion forjudgment on the pleadings, a district court must “employ the same standard
applicable to Rule 12(b)(6) motions to dismiss.” Fegav.

Hempstead Union Free Sck Disl, Ml

FJd 72,78 (2d Cir. 2015). This means “[a]ccepting the non-moving party s allegations as true
and; viewing the facts in the light most favorable to that party,” and granting judgment on the
pleadings “if the moving party is entitled to judgment as a matter of law

Richards v. Select Ins.

G>.,40F. Supp.Td 163, 165(S,D,N.Y. 1999) (internal quotation marks omitted).
Under Rule 12(c), a party is entitled to judgment on the pleading “only if it has
established that no material issue of feet remains to be resolved." JusterASsocs.-e. City of
90! F.-2d 266,269 (2d Cir, 1990) (internal quotation marks omitted); see Seilers v.
Rutland, Vt.i
M.C. Floor Crofters, Inc.,

842 F.2d 639,642 (2d Cir. 1988) (noting that judgment oh the

er raises issues of fact that, if proved, would defeat
judgment on the pleadings when the answ
the court considers ‘the complaint, the answer, any
recovery”). “On a [Rule] 12(c) motion, th
of which the court can take judicial notice
written documents attached to them, and any matter

Babkiewicz, 582F.3d 418,41? (2d Cir. 2009));

Z=4

Scanned with CamScanner

uase JL;ir*cv-ua4«a-v5B Documem89 Hieauw*uM» r«yc

C.

U Ul Wfif

ProSe litigant

Even after Twombfy and Iqbal, a "document filed pro se is to be liberally construed and
... must be held to less stringent standards than formal pleadings drafted by lawyers," Bennett
v. City ofNew York 425 F. App’x 79, 80 (2d Cir. 2011) (summary order) (quoting Boykin v.
KeyCorp., 521 F.3d 202,214 (2d Cir. 2008)). Further, pleadings of a pro se party should be read
“to raise the strongest arguments that they suggest" Kevillyv. New York, 410 F. App’x 371, 374
(2d Cir. 2010) (summary order) (internal quotation marks omitted). Nevertheless, dismissal of a
pro se complaint is appropriate where a plaintiff fails to state a plausible claimsupported by
more than conclusoiy factual allegations. See Walkerv. Schult, 717 F.3d 119,124,130 (2d Cir.
2013). In other words, the “duty to liberally construe a plaintiffs complaint is not the equivalent
of a duty to re-write it” Geldzahler v. At K Med Coll., 663 F. Supp. 2d 379,387 (S.D.N.Y.
2009) (internal quotation marks omitted),
IV.

Discussion

For the purposes of their motion, Defendants do not dispute that Plaintiff has a copyright
over the Short Stories. (Deft.’ Mem. 3 m3,)3 They argue, however, that the Short Stories are not
substantially similar to the Mlntseries as a matter oflaw and so Plaintiffs copyright infringement
claim must fail. (Id ; id at 5.)
A.

Applicable Law

“To prevail on a claim of copyright infringement, a plaintiff must demonstrate both (1)
ownership ofa valid copyright and (2) infringement of the copyright by the defendant.” Yurman
Design, Inc. v. PAJ, Inc., 262 F.3d 101,108-09 (2d Cir. 2001). Infringement, in turn, requires a

Scanned with CamScanner

uasea:i/<cv*v34tt^vdti uocumeruos* hitea \nttavm& rayc a wi ww

plaintiff 10 demonstrate both that: “{I) the defendant has actually copied the plaintiffs work;
and (2) the copying is illegal because a substantial similarity exists between the defendant's work
and the protectable elements of plaintiff's Iwork].” Mat 110 (internal quotation marks and
emphasis added). Put differently, a work that “closely resembles” a copyrighted work wall not
infringe that work where the “similarity is.., not the result ofcopying." Id. (quoting Feist
Publ'ns, Inc. v. Rural Tel. Sen. Co , 499 U.S. 340,345-46 (1991).
Only “the expression of ideas” is protected, “not the ideas themselves.” Peter F. Gallo
Architecture. IXC r. Simone Dev. Carp., 602 FJd 57,67 (2d Cir. 2010). To determine whether
two works share a substantial similarity ofexpression, the standard test “is whether an ordinary
observer, unless he set out to detect the disparities, would be disposed to overlook them, and
regard the aesthetic appeal as the same." Id. at 66 (internal quotation marks omitted). Where a
work contains both protectable and unprotcctable elements, however, the analysis must be “more
discerning.” Id (citation omitted). Put differently, a court, “confronted with an allegedly
infringing work, must analyze the two works closely to figure out in what respects, if any, they
are similar, and then determine whether these similarities are due to protected aesthetic
'expressions original to the allegedly, infringed work, or whether the similarity is to something in
the original that is free for the taking." Tuferddan ImpJExp. Ventures, Inc. v. Einstein Moomjy,
Inc., 338 F.3d 127,134-35 (2d Cir. 2003).
Courts have developed a number of general principles to identify the elements of a work
that arc “free for the taking" and therefore not protectable. See id. Some of these principles
include:
• “[W]hcn there is essentially only one way to express an idea, the idea and
its expression are inseparable and copyright is no bar to copying that
expression.” Comput. Assocs. Int‘1, Inc. v. Altai, Inc., 982 F.2d 693,70708 (2d Cir. 1992) (citation omitted) (setring forth "the “merger doctrine”).

Scanned with CamScanner

i'l

Case l:17-cv-03489-VSB Document 89 Filed 09/30/19 Page 10 01 aa

• Copyright protection docs not extend to “scenes a faire," or devices,
elements, or sequences of events that “necessarily result from the choice of
a setting or situation.” Williams v. Crichton, 84 F.3d 581, 587 (2d Cir,
1996) (internal quotation marks omitted); sec also MyWebGrocer. LLC v.
Hometown Info. Inc.. 375 F.3d 190, 194 (2d Cir. 2004) (scenes a faire are
“unproteetible elements that follow naturally from a work's theme rather
than from an author’s creativity”).
• Material found in the public domain is not protectible. Comput. Assocs.
Int 7,982 F.2d at 707.
• Stock characters and basic character types are not entitled to copyright.
Hogan v. DC Comics, 48 F. Supp, 2d 298,310 (S.D.N.Y. 1999).
• “fWjords, short phrases, tides, and slogans are not subject to copyright,”
although copying of a phrase may be actionable “if the phrase amounts to a
sequence of thoughts, choice of words, emphasis* and arrangement to
satisfy the minimal threshold of required creativity, or if the copier has
quoted or paraphrased a sequence of creative expression that includes an
ordinary phrase.” Lewinson v. Henry Holt & Co., 659 F. Supp. 2d 547,568
(S.D.N.Y. 2009) (intemal quotadon marks omitted) (collecting cases).
Still “even a compilation of unprotectable elements may enjoy copyright protection
when those elements are arranged in an original manner." Hogan, 48 F. Supp. 2d at 309,
Ultimately, then, the Court’s inquiry “focuses ort whether the alleged infringer has
misappropriated the original, way in which the author has selected, coordinated, and arranged’
(he elements ofhis or her work.” Gaito, 602 F.3d at 66. Merely listing “random similarities
scattered throughout the works” cannot, omits own, support a finding of substantial similarity
“because it fails to address the underlying issue: whether a lay observer would consider the
works as a whole substantially similar to one another," Williams, 84 F,3d at 590 (internal
quotation marks omitted). Instead, the court’s analysis should be principally guided by a
comparison of the “total concept and overall feel" ofboth works, Gaiio 602 F.3d at 67 (citation
omitted), as well as an examination of‘‘similarities in the theme, setting, characters, time
sequence, plot, and pace.” Williams, 84 F.3d at 589. However, where two works differ in genre

Scanned with CamScanner

1

Case l:X7-cv-03489-VSB Oocument89 Filed 09/30/19 nage ix 01»

>'

and medium, it is also appropriate to assess whether the quantitative and qualitative similarities
between the works are more than de minimis. Castle Rock Emm 7, Inc. v. Carol Pub g Grp.,
Inc, ISO FJd 132,138-39 (2d Cir. 1998),
“Though the issue of substantial similarity is frequently a fact issue for jury resolution,
Warner Bn*., he v.Am.Brood Cos.. 720 FJd 231,239 (2d Cir. 1983), the Second Circuit has
“held that the issue can be decided as a matter of law, even at the pleading stage, by examining
the four comers of the complaint together with the works themselves when ‘no reasonable jury,
properly instructed, could find that the two works’ are strikingly similar.” Wager v. Littell, 549
F. App'x 32,34 (2d Cir. 2014) (summary order) (quoting Gaiio, 602 FJd at 63-64), In other
words, “no discovery or fact-finding is typically necessary, because what is required is only a...
comparison of the works.” Gaiio, 602 FJd at 64 (internal quotation marks omitted) (affirming
district court’s dismissal of copyright action under Rule 12(bX6) for lack of substantial similarity
between two architectural proposals). On such a comparison, “the works themselves supersede
and control... any contrary allegations, conclusions or descriptions of the works contained in
thepleadingsId. (internal quotation marks omitted); see also Lombardo v. Dr. Seuss Enters.,
L.P., 279 F. Supp. 3d 497,504 (S.D.N.Y. 2017) (“Numerous courts in this district have resolved
the issue of fair use on a motion for judgment on the pleadings by conducting a side-by-side
comparison of the works at issue.”), off"d, 729 F. App’x 131 (2d Cir. 2018).
B.

Application
1, Materials Considered

Plaintiff attached to her Complaint a copy of the True Story, (Am, Compl., Doc. 9-1 at
64-66; 9-2 at 1-9), and the Fictionalized Story, (Am. Compl., Doc. 9-2 at 10-26). She argues
that the Miniseries copies both stories, and sets forth, in detail, the alleged “resemblances.” (See

Scanned with CamScanner

Case l:17-cv-03489-VSB Document 89 Filed 09/30/19 pageizou*

Id, Does. 9,9-1.) Plaintiff mentions in passing three antecedent works to the Mimscries—the
original Rosemary's Baby film, the original Rosemary's Baby novel by Ira Levin, and the followup novel by Ira Levin entitled Son ofRoscrnarysug&cstm that changes to the Mimscries from
the originals were inspired by her own work. (Am. Compl., Doc. 9 at 73, Doc. 9-1 at 59—60.)
The Lions Gate Defendants attach to their Answer photocopies of the copyrighted
versions of both Start Stories, (Ans. Exs. B, C.),4 which they observe differ slightly from the
versions attached by Plaintiff to the Amended Complaint. (Defendants version ofthe
Fictionalized Story, for example, contains an additional page of material, while Plaintiff’s
version cuts offabruptly. {Compare Ans. Ex. C, with Am. Compl., Doc. 9-2 at 10-26.)) They
also include a Blu-Ray disc of the Miniseries, (Ans. Ex. A), Blong with a synopsis of the
Miniseries, (Ans. Ex. F). The Lions Gate Defendants also allege that the Miniseries was based
on Ba Levin’s 1967 novel Rosemary's Baby (the “Novel”), which was previously adapted into a
1968 film with the same title (the “Film”), and annex a copy of the Novel, DVD ofthe Film, and
synopsis of the Film. (Ans.

6,7; id Exs. D.E. G.) In their memorandum of law, the

Lionsgate Defendants argue that “[wjhile the Miniseries makes some minor alterations... the
basic story is unmistakably the same” as the Novel and the Film. (Defs.’ Mem. 1.) Plaintiff’s
claims ofcopying, they contend, “ignorfej the express and unmistakable lineage ofthe
Miniseries.” (Id)
Here, I consider the versions ofthe Short Stories supplied by Plaintiff, in the interest of
accepting her allegations as true and drawing all inferences in tar favor. See Kassner, 496 F.3d
at 237. However, 1 note that I have reviewed the versions of the Short Stories supplied by
Plaintiff and Defendants, and find that there are no material differences between the two.

4 “Ans.” refers to Lions Cate Defendants’ Answer, filed On March 6,2018. (Doc. 39.)

Scanned with CamScanner

Case l:17-cv-03489-VSB Document 89 Filed 09/30/19 Page 13 ot 39

Therefore, consideration of Defendants* versions would not change the anatysis or my ultimate
conclusion.
In addition, it is my view that substantive consideration of the Novel and the Film and
their relation to the Miniseries is irrelevant to the Defendants’ motion and inappropriate at this
juncture. While on a Rule 12(c) motion, 1 must consider “the complaint, the answer, {and] any
written documents attached to them," L- 7 Designs, 647 F.3d at 422 (citation omitted), 1 must also
“{a]ccepl[] the non-moving party's allegations as true and vtewfj the facts in the light most
favorable to that party,” Richards, 40 F. Supp. 2d at 165.
Therefore, although I may consider the Novel and Film, Defendants do not cite any
authority that would allow me to accept their allegations about the relation between the
Miniseries and the alleged antecedent works as true at this stage. I read Defendants’ references
to the “the express and unmistakable lineage of the Miniseries,'” as an argument that if any
elements ofthe Miniseries are, in fact, similar to protectable elements of the Short Stories; these
elements Owe their existence to the Film or the Novel. But this argument goes not to substantial,
similarity—the inquiry the Second Circuit has deemed appropriate for resolution On Rule 12
motion, Gaito, 602 F.3d at 64—hut rather to whether that similarity is “fortuitous" and “not the:
result of copying,” Yurmcut, 262 F.3d at 110 (citation omitted). In other words, it goes to the
“actual copying" element of art infringement claim. See Mutter v. Twentieth Century Fox Film
Corp,, 794 F. Supp. 2d 429,444 (S.D.N.Y. 2011) (granting motion for summary judgment and
Observing that where prior horror franchises served as independent sources of a film, no
inference of copying could be drawn as to “element{s] occuf[ring] both in the defendant’s prior
work and the plaintiff’s prior work”), tiff’d sub non Mullet y. Anderson, 501 F. App’x 81 (2d
Cir. 2012). The question of actual copying would be an issue of fact that could not be resolved

Scanned with CamScanner

I

Case l:17-cv-03489-VSB Document ay

• -=>—

on the pleadings alone, given the allegations presently before me. Cf. Webb v.
Supp. 2d 681,685 (S.D.N.Y. 20l2)(on defendants' motion

Stallone, 910 F.

for summary judgment, their

declaration that their film was based in part on a script for another film that was written prior to
not sufficient to carry (heir burden of “strong, convincing, and
the plaintiffs work was
- such that no reasonable jury could reach a conclusion other than that the
persuasive evidence
film had been created independently of plaintiffs work (citation omitted)), offdon other
grounds, 555 F. App'x 31 (2d Cir. 2014).
In any event, Defendants do not contend that Plaintiffhas failed to sufficiently allege
actual copying.

Instead, they assume for the purposes of the motion that they had access to the

Short Stories—one way in which a plaintiff may circumstantially establish copying, see
Jorgensen v. Epic/Sony Records, 351 F.3d46,51 (2d Cir. 2003>-but argue that “all the access
in the world would not make Plaintiffs copyright infringement claim sustainable” because
ultimately the works are not substantially similar. (Defs.’Mem. 4 n.3.) Therefore, because 1)
Defendants have not put actual copying in issue, and 2) because in the absence of an argument
that Plaintiffhas failed to state a claim as to actual copying, actual copying is a question of fact
not appropriate for resolution by judgment on the pleadings, I do not consider the relation
between the Miniseries and the antecedent works. Instead, 1 limit my analysis to the question of
whether, on the face of the works, the Miniseries is substantially similar to the Short Stories. I
find that it is not
2. The Works
A determination of substantial similarity “requires a detailed examination of the works
themselves,” and so 1 begin by “summarizepng] each work at issue,” Williams, 84 F.3d at 583
(internal quotation marks omitted), based on my “good eyes and common sense,” Allen v.

Scanned with CamScanner

case l:l7-cv-03489-VSB Document 89 Filed 09/30/19 Page 15 of 39

Scholastic Inc., 739 F. Supp. 2d 642.660 (S.D.N.Y. 2011) (quoting Gaito, 602 F3d at 66).
a. The Groaning Road: The Tme Story
The True Story, a 12-page short story set in Paris during the 1980s, chronicles an
•twiarncd female narrator’s friendship with.a man called G until his unexplained, eerie
disappearance. (See generally True Story.)5
The story opens with vignettes of the pair’s friendship. (Mail.) The narrator describes
taking evening walks through different Paris neighborhoods, with G stopping to dig through
garbage piles, in search of valuables. (Id) The narrator describes Gas an “intelligent, talented,
cultivated black man” with “an artistic nature" from Texas. (Id at 2.) A former civil servant, G
retired and settled in Paris. (Id) The narrator is intrigued by G’s “generosity with

*

companionship and his stinginess with money, his cheerful outlook and resigned acceptance of
human nature." (Id) According to the narrator, G is gay, although this is not something G spoke
about explicitly. (Id)
The narrator and Gvisit museums and discuss the works they see, share meals, attend
jazz conceits, and socialise, (Id) At one event, the two encounter an American expatriate,
George Brown, a drummer from Flint, Michigan. (Id) George grew up with church music and
eventually played for Motown. (Id) He teases G about being gay but the narrator explains that
underneath the teasing, George and G bonded over their shared musical heritage. (Id) The
narrator confesses that she wants George to drop his groupies arid fill in love with her, but
knowing this is unlikely, settles for flirting with him instead. (Id at 3.)

Ani^cd Comp,aim; Docura"'t 9-1. at 64-66, and Document 9-2a!l-9 The

Scanned with CamScanner

Case l:17-cv-03489-VSB Document 89 Filed 09/30/19 Page 16 or 3a

The narrator tells us that she and G went out “on the town" two or three times a week,
visiting smoke-filled Paris clubs to “expcriencefl over and Over the genius and downright
craziness of a tight-knit musical family in exile." (Id) It was after these nights out that 0 and
the narrator would go walking through Paris. (Id.)
One day, the narrator says, she and G began talking about the Christian church. (Id)
The narrator comments that the American Church in Paris is full of “evil people,” and G argues
that the church’s Objectives have “nothing to do with God" but rather with the domination of
others (Id at 4.) The narrator becomes defensive, but then makes a self-deprecatingjoke and
lets G win the argument (Id) Privately, she tells the reader that she had never left the black
church ofher upbringing behind, where she found “joy and power and love.” (Id) In contrast,
she describes feeling like an outsider at white churches. (Id) G, on the other hand, had lost
“[h]is inherited bigotry of white people" and was open and engaging with all types of people,
despite the “honor stories of Texas and Mississippi" from his past (Id at 5) With these
qualities, G influenced the narrator to accept those different from her. (Id)
The narrator then returns to describing their walks, alluding to “Charming," “timeless”
neighborhoods, “hidden courtyard[sj” with “medieval brick floors” and “cracked, gray walls
covered with vines,” and describing how they crossed the Seine daily, “marvel[ingj at thC ..
stalely bridges." (Id at 5—6.) The narrator then becomes introspective again, musing about rime,
the fleeting nature of life, and the presence of the past in Paris. (Id at 6.)
The scene shifts to a party at the narrator’s home. (Id) G is singing to the admiring
guestsand George arrives drunk with two groupies in tow. (Id at 7.) She wonders aloud to G
whether (heir friends are so admiring because singing “assures people that we’ve forgotten the
past,? implying that “we” refers to their shared racial heritage. (Id) G tells her to stop it and to

Scanned with CamScanner

Case l:17-cv-03489-VSB Document 89 Filed 09/3U/iu ruye i.. u. o»

sing only for herself. (Id.)
After the party, the nanatof and Gore alone denning up. (M) G announces that he has
found his own apartment and invites the narrator to come to dinner the next day. (Id.) The
narrator is surprised and pleased to hear that G has splurged to rent his own place after living
with other people, but G dtplaios that he has rented a room in someone elsc’s apartment. (Id.)
The next day, the narrator arrives at G’s new apartment on time and rings the bell, (Id. at
8) G opens the door and escorts her into a “spacious living room with high ceilings.” (At) The
carpet, a sofa, and an armchair arc all gray', there is no other furniture in the room. (Id.) A black
and white portrait of Hitler is hung on the wall above the sofa. (Id) The portrait stuns (he
narrator into silence. (Id) She is about to say something to G when a short, elderly couple
appears behind her. (Id at 9,) The narrator greets them with a “bonjour,” but they only nod.
(Id) G gives her a tour of his area of the apartment, while the narrator tries to ask Mm using
mime why be has chosen to live with Nazis. (Id.) She is afraid to ask him out loud, for fear the
couple will overhear. (Id)
In the kitchen, the narrator encounters other abnormalities: a bushel and a half of garlic
Sits on the counter, and the cabinets are completely empty, (Id at 10.) She becomes aware of a
strange, piercing smell that she cannot identify. (Id at 11.) G begins preparing dinner, then sets
the table, and the friends sit down to eat; the food is delicious. (Id) Still feeling strange, the
narrator leaves earlier than she ordinarily would, and tells G she will call the next day. (Id)
But when she telephones, G does not answer. (Id) The narrator calls him every day for
weeks, knocks on the door once, and stands outside looking up at the apartment window, but G
never reappears. (Id) She never sees or hears from Mm again. When the narrator retells tMs
story to others, they ask why she doesn’t go to the police. (Id. at 12.) What happened was so

Scanned with CamScanner

Case l:l7-cv-03489-VSB Document 89 Piled 09/30/19 Pageisotay

impossible for Her to accept, she explains, that she had blocked the story and G’s existence from
her conscious mind. (Id)
b. the fimanino Road: The Fictionalized StotV
The Fictionalized Slot}’is a 17-pagc work labeled “a synopsis." (Fic. Story t.)‘ Narrated
in the third person, it opens on a brown-skinned woman called Tracey Pryor, who is visiting a
church annex and notices a young man watching her from among the dwindling crowd. (Id)
They lock gazes until she looks away, embarrassed. (Id) Tracey leaves the annex and walks
down a boulevard through a series of chic neighborhoods; she has already explored them
aimlessly, looking for a street that she has not had the nerve to locate definitively. (Id.) She has
a cracked postcard in her pocket (Id at 2.)
Tracey stops into a eafd, and asks the barman in French whether he speaks English:
“Pariez-vous anglais, Monsieur?” she says. (Id) The barman says he'docs, and the two chat
briefly. (Id at 2-3.) Tracey shows him the postcard and asks whether he knows the street
written on the back. (Id at 3.) Her father used to five there, a long time ago, she says, (Id)
The stoty then cuts away from Tracey. (Id) Two women in their late forties meet in a
. square near an exclusive Paris neighborhood. (Id) One, Andrea Durand, is a blond DutchFrench Huguenot from South Africa. (Id) The other, Jerri Mites, is an African American from
Mississippi. (Id) They greet each other fondly like old friends and begin walking. (Id. at 3-4.)
Andrea and Jerri have been friends for nearly a quarter century. (Id. at 4) Andrea is
kind, intelligent, and wealthy; Jerri is intelligent and observant, with a “sparkling smile and
honey-coated voice.” (Id.) However, she makes “biting analyses” and has a tendency to go

pages are also internally numbered. For ease ofreference, I refer In this summary lo the internal numbers: '

Scanned with CamScanner

Case l:17-cv-03489-VSB Document 89 Filed 09/30/19 page ia o>«

“straight for the jugular" when attacked. (Id.) Andrea soys she wns surprised by her friend's
personality, and admits that this surprise could only have been due to stereotypes instilled deep
inside her. (Id.) She befriended Jerri to prove she could be open-minded and to defy her parents.
(Id.) Jerri, in turn, wanted to defy her own parents’ bigotry, (Id. at 4-5.) She admires Andrea,
but is exasperated when ha friend picks expensive restaurants without considering her budget.
and when her friend flirts with “Lance,” (Id at 5.)
The pair stroll down the busy street, arm-in-arm, a habit they had "picked up from
Parisian women decades ago.” (Id) They do not talk much. (Id.) Jerri buys a newspaper, and
Andrea asks whether she is “looking for new leads to pick up their trail again." (Id at 6.) The
two discuss someone who has disappeared; Jerri wonders about him, but Andrea tells her she
can't devote her. Ufe to searching for him. '(Id) Andrea then suggests having a drink; Jerri
"who;
agrees even though Andrea isn't supposed to drink. Andrea suggests inviting “Lance,
turns out to be Jem’s significant other and a musician, and who is also not drinking. (Id at 6-7.)
Andrea and Jerri sit down at a cafd by the window with pate, bread, and wine. (Id at 7.)
Jeni feels guilty about drinking around Andrea. (Id) Andrea asks about Jerri's jobat the
university. (Id) Jerri teaches there, but is also assisting “Professor Stem" with a research
project related to what Andrea calls her “Nazi man-hunt." (Id at 8.) Andrea teases her about the
research project, but softens and tells Jerri she admires her and says that she has faith that if “the
couple” is alive, she and the professor will bring them to justice “for what [they] believe.,,
happened to Ollie." (Id) Although not explicitly stated, “Ollie" seems to be the person whose
disappearance Andrea and Jem were discussing earlier in the story.
i and Andrea sip wine and get progressively more drunk, and they joke with one
Jem
•another.

(Id at 9.) Andrea laments the fact that her father can no longer drive and so she lias to

Scanned with CamScanner

~ •.*t*wr\Wnor¥ao

L/UWUUWMl D»

ntCU U9>ov/ua

rayc fcvr w. ow

<Wve him to chutth for “secret meetings” where, she says, he and “his cronies" purposely speak
>n languages she docs not understand. (Id at 9-10.) Jerri says Andrea is paranoid. (Id. at 10.)
Andrea encourages Jerri to go back to chutth; Jerri recalls growing up in the church and says it
fell joyful and loving. (Id) In contrast, she says, the American Assembly in Paris, a church
congregation, is full of spying, tote, pedophilia, and former Nazis. (Id.) They all protect each
other's secrets and make generous donations in order to protect their own, according to Jerri.
(Id at 11.) Jerri teasingly accuses Andrea of being part of this tradition; Andrea plays along and
then changes the subject. (Id at 11-12.) She tod noticed a familiar-looking black woman at
church that morning. (Id at 12.) The woman had looked lost and atone, but disappeared before
Andrea Was able to talk to her, (Id)
The story then cuts away from Andrea and Jerri to a church annex, (Id) A character
named Damien Klebcr is at his grandmother’s elbow as she greets people during coffee hour
when he notices a striking young woman. (Id) Also present arc Andrea and her father. (Id.)
Andrea muses that she doesn’t care much for other people, unlike Jerri who seeks to connect
with everyone she met (Id at 12-13.) Andrea observes Damien looking wistful and
preoccupied with the young woman, (Id at 13.)
Damien’s grandmother notices the young woman’s face and startles, (Id at 14.) Damien
recalls her having a similar reaction when a black friend of Andrea’s had come to church several
yearsago. (Id) Damien asks his grandmother if she is all right (Id) She says she is but that
they needto leave. (Id) The young woman disappears, and Damien hopes that it wasn’t the
color ofher skin that had startled his grandmother. (Id.) But, he says, his grandparents had
always avoided the handful of Africans who had attended their church, and the whole
congregation had implicitly aimed to discourage them from coming at all. (Id.) Still, Damien

J

Scanned with CamScanner

t

>~aoc x.K-cv-UMoa-ViB uacumeraos r«cu wi

• -a-

hopes to see the young woman again. (Id.)
The story cuts again to Professor Stem at his desk. (Id at 15.) Stem researches Nazis
and seeks out those in hiding. (Id) He seems to be elderly attd worries about leaving his work
unfinished; he is grateful for Jerri’s help and energy. (Id.) Jerri had shared an “astounding
story" with him and had introduced him to her musician boyfriend Lance. .(Id.) Stem, a Jewish
French researcher, and Lance, an African-American drummer, have much in common despite
their different backgrounds. (Id 15-16.)
Stem observes that many of his colleagues are opposed to the university’s opening its
doors to more diverse Students and professors. (Id at 16.) He recalls a conversation in which he
advised Jerri that even in 2008, Paris is not like America. (Id) He suggests she be more discreet
with her opinions. (Id.) Jerri fires back: is intellectual curiosity only for certain people? (Id)
The two enjoy each other’s hank way oftalking. (Mat 17.) As a result, even though Stem had
been dismissive when Jerri first approached him, he is moved when he hears her story of a friend
who had rented a room from a Nazi couple and then disappeared without a trace. (Id) He
agrees to help look for the Nazi couple, and in return Jem offers to help him by translating and
tidying his desk. (Id) The story cuts off there. (Id)
c. Rosemary’s Babv: The Miniscries,f
The Miniseries is four hours long, spread over two installments. Part 1 opens on a
woman, fair-skinned with dark, messy hair. She is looking at a book with the words “Steven
Mareato Servant of the Devil?” and writes “it’s an anagram." A man is banging on the door to
the room but she does not let him in. Frantic, she shouts that he betrayed her. .She holds her

1 This summary was created using the synopsis of the Miniseries and by watching the entirety of the Ministries as
presented on the Blu-Ray discs provided os attachments to the Answer ofthe Lions Gate Defendants.

Scanned with CamScanner

I

— -'-w'ot-voo uocumem U9 Ftiea 09/30/19 Page 22 of 39 ~

Wly, saying “my baby," and steps up on the radiator in front of an open window. Just as the
man forces the door open, she jumps and hits the ground outside, several stories below the
window. The camera lingers on her body on the ground, limbs askew and blood pooling behind
her.
The film cuts to another couple. Rosemary, a Woman with medium-toned skin, is lying
on an examination table while a man conducts an ultrasound of her belly, Rosemary is told that
the baby she is carrying has died. Heartbroken, she and her husband, Guy, who is white, leave
the office, passing a man with piercing, unnaturally blue eyes and a strange cane.
The film cuts to Rosemary and Guy unpacking their new apartment in Paris. Rosemary
tries to seduce Guy, but he says he needs to work on his book. Rosemary goes out She
approaches a pair of young men and asks ifthey speak English - “parlcz-vous anglais?” - and
asks for directions. They speak French; she seems not to understand and giggles. She finds her
way to the caft she is looking for, where She meets her friend Julie. The two go walking along
the Seine, arm in arm, with bridges visible in the background. Eventually, they part ways,
Rosemary, walking alone, passes a baby in a carriage. When she stops to look in at the baby, a
thief snatches her purse and runs away. As Rosemary chases him, he collides with a car,
dropping what he's carrying, and keeps running. When Rosemary looks at the wallet he
dropped, it turns out not to be hers, but rather belongs to a “Margaux Castavet”
Rosemary goes to die address listed in the wallet, an ornate building called La Chimerc,
and meets Margaux. Margaux is charmed by Rosemary, and invites her and Guy to a party that
night That evening, a man in a suit appears at their apartment to escort them to the party, which
turns out to be formal and elaborate. Rosemary and Guy, whose last name is Woodhousc, meet
Margaux's husband, Roman, who says he is familiar with Guy’s work and sweeps him away to

Scanned with CamScanner

Case l:17-cv-03489-VSB Document 89 Filed ua/jurxt* ---------------

r

. At one point.
meet other guests. Rosemary mingles with the others in attendance at the party
the blue-eyed man from the doctor’s
she is looking for the bathroom, but accidentally encounters
. She does not recognize him. At the end of the night, Roman
office having sex with two women
gives the Woodhouses a block kitten.
After Rosemary and Guy have gone to bed, they are

awoken by the kitten. Guy opens the

doors to the kitchen to investigate and flames burst forth. The movie cuts to the h sp
Rosemary Availing on a bench. The Castavets appear and Rosemary

finds out that Guy will be

hoot whem they will live. The Castavetsoffer to let the
released shortly. She worries a
La Ghimcre, for the same rent they had
Woodhouses live in an empty apartment they Own at
When they move into the apartment, it is fully
already berm paying. The Woodhouses accept
furnished and clo
generous. He finds a lacy bra and tries to

persuade Rosemary to wear it Rosemary refuses and

says that it’s all too much.
Guy is not making progress on his book and is frustrated

. Rosemarydreams she jumps

flora the window and wakes up screaming.
Rosemary and Julie meet at the Sorbonnc an
Julie says that she

has recommended Guy for head of the English department As they are

walking, Rosemary spots Roman
ximning down

d walk through the hallway arm in arm

and Guy sitting On a batch talking. Suddenly a man comes

the hall and knocks the books out of an older woman

’s hands. Roman helps her

gather the books but palms a pen she has dropped.
. It turns out to be
Rosemary returns home and panics when someone else is there
Margauxand a

handyman who she says is there to fix the fireplace. Rosemary asks Margaux not

to enter the apartment when they aren

t homc and says she has a headache from the shock.

n
Scanned with CamScanner

Case l:17-cv-03489-VSB Document 89 Filed 09/30/19 Page 24 of 39

Margaux performs some type of healing she learned in Tibet on Rosemary, then kisses her on the
lips. Rosemary’s headache has disappeared. After Margaux leaves, Rosemary realizes the
apartment has no fireplace.

I

Later, Guy and Roman are riding in a car together and go to a formal gentleman’s club.
Roman tells him the secret to success is to find a person who makes him whole, like his wife,
and a benefactor.
Back at the apartment, Rosemary is looking around trying to figure out what Margaux
and the handyman had been doing there. She finds a hidden closet, which contains linens as well
as a pair of baby shoes and a photograph of the couple from the opening scene. When Guy
comes home, Rosemary shows him the closet and says the photo was taken from inside the
apartment. Guy tells her she is obsessed. He gets ready for his interview at the English
department and puts on one of the suits from the Castavets. Rosemary is upset by this. Guy tells
her that his Book contract has been cancelled,
Soon after, Rosemary is alone, sitting in the sun in the apartment after a shower. As she
rubs lotion on, she notices a group ofpeople in the window opposite. She hears chanting and
uncanny laughter.
The scene cuts to the university. The woman who had dropped her books earlier is being
interviewed. She becomes ill: sounds and voices become distorted, and she is sweating. The
camera zooms in on a group of black flies, buzzing. Her nose starts bleeding; when she wipes it,
the tissue comes away covered with blood and flies. She seizes a pair of scissors and stabs the
interviewer, then slits her own throat. Blood spurts out The injured interviewer staggers out of
the room and Guy tushes in. He sees the woman slumped on the floor, dead and covered in
blood.

Scanned with CamScanner

I

Case i:17-cv*03489-VSB Document 89 Filed 09/30/19 Page 25 of 39

Rosemary meets wiiih the police commissioner, whom she met at the Castavcts’ party.
The commissioner informs her the couple
and shows him the photo she found in her apartment,
in the photo are Jacques and Nena Pascale. Nena had Wiled herself and her husband was
missing; the

commissioner thanks Rosemary for bringing this back to his attention and tells her

to always listen to her feelings.
Rosemary arrives home, the apartment is dimly lit and rose petals arc on the floor.
When
Inside, she finds a surprise party to celebrate the feet that Guy has been appointed head of the ^
English department

During the party, Guy pulls Rosemary aside and says he wants to try again

t„iHng about and gives Rosemary a pendant to help,
forababy. Margaux intuits what they are
That night, Rosemary has a nightmare in which Guy pushes her out of the window. She
awakens to find Guy at his computer, typing furiously. He says he is working on his book.
Later, Rosemary and Julie am at a cooking class. Rosemary tells Julie about the
nightmam and shows her the photograph ofNenaand Jacques. Julie observes that based on the
photograph, Nena was a Coptic Christian. Them is only one Coptic church in Paris, she says,
and suggests Rosemary go them to find people who knew Nena. Rosemary follows her
suggestion and meets a priest The priest says that Nena had been involved with Satanists and
that La Chrmere is an unholy place. Steven Marcato lived there, he says. In a flashback, Steven
Marcato is revealed to be the man with the piercing blue eyes; the priest says he saw him rip out
a woman’s heart and eat it The priest tells her that Marcato is the face of the devil, and urges
her to leave town, just as he had urged Nena. Later, another priest discovers the first priest
hanging from the ceiling, dead.
Rosemary reads Guy’s book, which he tells her Roman is going to submit to his
publisher. Rosemary catches a glimpse of the blue-eyed man in the building, but be vanishes.

Scanned with CamScanner

Case l:17-cv-03489-VSB Document 89 Filed 09/30/19 Page 26 of 39

At the university, Guy is walking out of a building, followed by a group of young female
students, Jacques Pascalc appears and approaches Guy, who recognizes him from Rosemary's
photo, Jacques tells Guy there is a price for being on top. Roman is watching Guy and asks who
he was speaking to; Guy brashes the question off. Roman tells Guy the publisher loved his
manuscript and wants to meet They leave together.
Rosemary meets with the police commissioner again. He tells her the Coptic priest is
dead and asks why she had met with him. Rosemary tells the commissioner what the priest had
told her about La Chimere. The commissioner shows her a photo of Steven Marcato, a
billionaire, who she now realizes is the blue eyed man.
Back at the Castavets’ apartment, Rosemary and Margaux are in the kitchen, which is full
ofplants and Strange things, tike a large jar of black fish, Margaux is butchering a black-skinned
chicken and making fertility soup. When she observes that Rosemary is not wearing the
pendant, Rosemary brings up Nena Pascale. Margaux breaks down: she acknowledges that she
knew Nena and had begged her to leave her husband, but she did not listen.
After Guy comes home and announces that he has sold his book, the two couples go out
to dinner. Rosemary wonders to Margaux why he is so aloof, and Margaux observes that success
can be hard for men to accept. When they are walking home after dinner, Jacques emerges from
the shadows. He shouts “No more lies! I want what I was promised1." Roman feigns confusion,
and Jacques shoots him, In turn, the Castavets4 driver shoots Jacques, and Margaux removes a
ring from the wounded man’s finger. At the hospital, Margaux is upset to hear that Jacques is

'

not dead. As the doctors operate on Jacques’ wound, the camera shows bloody close-ups of the
operation and Jacques’ organs. Margaux chants over the ring, camera zoomed in on her face,
and the surgery begins to go awry as creepy music plays: Jacques screams and writhes on the

Scanned with CamScanner

Case l:17-cv-03489-VSB Document 89 Filed 09/30/19 Page 27 of 39

operating tabic, blood spurting from his abdomen. Hedies. Separately, Roman is awake in his
hospital bed, recovering.
Margaux and Rosemary are in the car leaving the hospital, with Guy in the front seat
Margaret says Rosemary smells “ripe”—she’s ready, Margaux says. Margaux offers to make
fertility soup; Rosemary says they are all exhausted, but Margaux insists. Back in their bedroom,
Guy and Rosemary become intimate; the camera lingers on their bodies moving together in the
blue-tinged shadows. Rosemary says she feels strange, like she’s floating away, and passes out.
She has strange visions. First, she first flashes back to a sunny day in her childhood. Later, She
sees Roman in the shadows, herselfbeing kissed by Margaux, and the blue-eyed man having sex
with her slumped body. His back transforms into something monstrous-looking. This is the end
of Part L
Part II begins the next morning. Rosemary wakes up with bloody gouges in her back.
Guy says they happened during sex, and she is upset, assuming Guy had sex with her while she
was asleep. Guy reassures her that he didn’t, and shows her scratches on his own chest.
Rosemary tries to seduce him again, but Guy does not want to engage. The scene shifts to the
police commissioner, who watches a security video of Jacques’ death and sees a shadowed figure
outside the operating room.
Rosemary meets Julie and they go walking through Paris arm in arm; the Eiffel Tower is
visible in the background. They stop to watch a capoeira performance, and Rosemary tells Julie
Guy has not been interested in her since the night they had sex that resulted in the gouges on her
back. Julie’s cross necklace gets caught and she asks Rosemary for help; when Rosemary
touches it, her vision and hearing briefly distort At a tour ofthe Paris Catacombs, Rosemary
faints. Guy comes to meet her and she tells him that she had a shatp abdominal pain—and that

Scanned with CamScanner

V*«C AJIJ'VVW*fowao UUCU11I9MI09

mcu wa»l*i»w»4.s»

she is pregnant Guy is happy to hear the new.
»

Rosemary goes to a doctor's office and tells him about the pain. The doctor confirms that
she had been referred to him by the Cnstavcts, and tells her to ask Margaux to make her a drink

(

out of specific herbs. Guy is at a party and Roman toasts to his success.
Julie visits Rosemary mid observes that she does not look well. Rosemary gets her hair
cut short Julie refers Rosemary to another doctor, who reports that the baby’s heartbeat is strong
but that there arc some abnormalities and he wants to do more tests. When Rosemary tells Guy
about this, he yells at her, disparaging the doctor as someone Julie slept with. Rosemary begins
crying, but eventually agrees not to have more tests done.
Rosemary eats raw chicken and throws up. She runs into the blue-eyed man in the
building again, When she reports this to the police commissioner, he tells her that Steven
Marcato has not been sera in 30 years and must be dead.
Guy and the Castavets are meeting without Rosemary. Me is upset; the Castavets told
him Rosemary would be safe. Roman says that she is and reminds Guy that he helped write
Guy’s book.
Rosemary and Julie meet again. Rosemary is sick and sweating; Julie urges her to have
follow-up tests, but Rosemary refuses. Julie goes to see Guy alone at the university to try to
rhanpr his mind about the other doctor. Guy says he is planning to resign from his job to take
cart of Rosemary, and again accuses Julie of having a soft spot for the doctor because she had
slept with him. Julie remarks that she has slept with Guy too, but that this does not mean she
cannot discern someone’s character. Guy pretends to apologize and appears to try to kiss her,
but in feet steals her necklace.
Margaux brings Rosemary the herbal drink prescribed by the first doctor. Rosemary

Scanned with CamScanner

i<

Case l:17-cv-034S9-VSB Document bs

-

comment* (tat it tastes
Rosemary telli Mjsgaaw that Julie is coming by and that she is going to 8**Bn ^1JufiehatfteeoeMng class alone. Thi* scene bchoppy with strange close-ups ofo fish
bcingbuicheml, its gut* spilling out. Julie seems confused and fmntic

. Suddenly, n pan of

boiling liquid is upended and flashes her arm. She falls backwards, hitting her head on a
and blood pooling behind her
countertop. Shefalls to the ground and twitches, eyes wide open
v«l She dies. The picture cuts rapidly too coffin being incinerated. Outside, Rosemary and
Guy are dressed m black, arguing again about Rosemary’s desire to sec the doctor that Julie had
recommended. Suddenly. Rosemary says the pain has stopped and they panic. Then, relieved.
she says the baby has kicked.
Later, Rosemary’s belly is much bigger. She is smiling and happy, celebrating at a baby
shower thrown by the Castavcts. Guy does not look Happy, Roman pulls Guy aside and tells him
to be more affectionate with Rosemary. They argue.
The police commissioner meets with Rosemary to tell her he has found more evidence
rehuing to Steven Morcato. Rosemary seems to have made an about face, and tells him to stop
investigating. The commissioner tells her that Nena Pascal was pregnant when she died. Guy
and Rosemary celebrate New Year’s Eve at home. Rosemary dreams she is in a bathtub, with
someone who looks like Roman but has piercing otherworldly blue eyes rubbing her stomach.
Maxgaux finds Guy in’a cafd. She kisses him on the lips.
Back at the apartment, Rosemary finds an entire hidden room. Inside, she comes upon a
book called “Ail of Them Witches’’ She opens it, and sees a passage about blood sacrifice of
children as well as the page about Steven Marcato pictured in the first scene of Part I. She sees
where Nena Pascal had written “it’s an anagram.” Rosemary uses Scrabble tiles to rearrange the

Scanned with CamScanner

(

Case l:i7-cv-03489-VSB Document 89 Filed 09/30/19 Page 30 of 39

letters in Steven Marcato, and discovers that they also spell “Roman Caslavct.” She calls the
police commissioner to tell him what die has discovered. Hie commissioner directs Rosemary
to meet him at the park. When he hangs up, \vc see that Roman is at his office; in a later scene,
Roman tries to bribe the commissioner to slop investigating. The commissioner refuses, and
Roman steals his cigarette lighter.
Guy comes home and Rosemary tells him what she has teamed: that the Castavets are
witches and want their baby as a sacrifice. However, when she discovers Julie's cross necklace
in his desk, she realizes that Guy is involved too. Rosemary sneaks out to meet the
commissioner.
As the commissioner is driving to the park, Roman casts a spell with the lighter. The
commissioner begins hallucinating and experiencing distortion. He is sweating profusely and
water begins pouring into the car. He repeatedly mbs his face, trying to dry it Eventually, he
mbs his face and comes away with his hand covered in blood. His face becomes increasingly
bloody and he eventually stops the car in the middle of the street and stumbles out As he TO
crosses the road to walk towards Rosemary, he is hit by a cement mixer. It drags his body out of
frame, leaving a broad streak of blood behind it.
Rosemary goes to see the doctor referred by Julie and tcllshim about everything. He
thinks she is hysterical and gives her a sedative. Guy and the original doctor appear to take
Rosemary home; she manages to escape briefly, but they catch her. Rosemary goes into labor.
Rosemary wakes up and finds out three days have passed. Guy tells her they lost the
baby because they did not make it to the hospital in time. When he tells Rosemary the body was
already cremated, Rosemary screams.
Rosemary and Guy are Oli a boat on the Seine, silhouetted against the sunlight as they

Scanned with CamScanner

i

v-ase 117-CV-03489-VSB Document 89 Filed 09/30/19 Page 31 of 39

pass under a series of bridges. She says she docs not want to be with Guy and is returning to
New York. They pour ashes into the river.
Back in their apartment, Rosemary hears a baby crying and starts desperately searching
for the source. Milk spots appear on the front of her shirt She walks through the hidden closet
into the Castavets’ apartment and picks up a knife in the kitchen, She walks further in and sees
people gathered around a bassinet draped in red fabric. Guy tries to explain himself to her, and
she shouts that she will not let them sacrifice her baby, She approaches the bassinet and looks
in—the baby is beautiful, she says, Suddenly, Us eyes glow an otherworldly blue. Roman tells
her that Satan is the baby’s father. Rosemary brandishes the knife as if to kill the baby, but finds
she cannot. Instead, she picks him up and cradles him, then brings him to her breast to nurse.
The people gathered around say “Hail Rosemary,”
Later, Rosemary is walking along the Seine, pushing a baby carriage on the cobblestones.
A woman pecks in and comments on how beautiful the baby is. “I know,” says Rosemary.
“He’s perfect”
3. Comparison of the Works
The works undisputedly bear a handful of superficial and immaterial similarities, such as
the ethnicities of certain characters and the Parisian setting. However, having examined the
relevant works in detail, if is apparent that the True Story and the Fictionalized Story, even taken
together,* differ dramatically from the Miniseries in “total concept and overall feel,” see Gaito,
602 F.3d at 66, as well as in elements more easily isolated, like plot, themes, and pacing.
Williams, 84 F.3d at 589. There is simply no “plausible claim that there is a common aesthetic

• Where the allegedly infringed work is made up of separate but contiguous works, it is appropriate to treat than in
the aggregate as a single work. See Castle Rock Emm % I SO F.3d at 138.

Scanned with CamScanner

<-ase l:l7-cv-03489-VSB Document 89 Filed 09/30/19 Page 32 of 39

appeal between” the Short Stories and the Ministries. Mattery v. NBC Universal. /we., No. 07
Civ, 2250(DLC), 2007 WL 4258196, at *8 (S.D.N.Y, Dec. 3,2007) (quoting Castle Rock
Bam 150 FJd at 140), ajTd. 331 F, App’x 821 (2d Cir. 2009). Putting to the side the
divergence in genre and mood, the qualitative and quantitative similarities of protectibie
expression ore less than ate minimis. See Castle RockEntm't, ISO FJd at 139 (where “original
and secondary works are of different genres and to a lesser extent because they are
in different media," the most appropriate analysis is “the quantitative/qualitative approach"),
a. General Comparison
The Mini series is a dramatic horror series, with scenes of bloody violence, and a strong
sexual undercurrent Its focus is on Guy and Rosemary’s growing relationship with a group of
Satanists, and their exploitation ofRosemary’s body. Ultimately, Rosemary is raped by Satan,
suffers through a miserable pregnancy, and eventually gives birth to his child. Multiple, drawnout grotesque deaths occur on screen, with the camera lingering on the blood and gore. There is
significant sexual content, on which the camera often lingers, including Rosemary trying to
seduce Guy, Guy trying to seduce Rosemary, Guy and Rosemary engaging in foreplay, Steven
Marcato raping Rosemary, Margaux's kissing of Rosemary and Guy on the lips, and Rosemary’s
V

dream of Roman/Steven touching her belly in the bath. Rosemary is isolated; .her only friend is
Julie, who meets a brutal end, and her own husband betrays her. The Miniseries’ main visual
themes are violence, sex, and Satanism; underneath that, it attempts to provide social
commentary on matters like the exploitation of women’s bodies, and the ways that power
corrupts. The Miniseries unfolds chronologically and primarily centers On Rosemary’s
experiences.
The Short Stories, by contrast, are far more realist in tone and feel, with completely

Scanned with CamScanner

1

Case l:17-cv-03489-VSB Document 89 Filed 09/30/19 Page 33 of 39

different plots. they contain no explicit murder or death, and no sex . The Tnic Story ends on a
. The Fictionalized
suspenseful, eerie note, but any violence or sinister intent is merely implied
and leaves the reader
Story is not frightening, though it appears to be meant as a mystery
wondering a

bout the fate of the “Ollie" character and about die father Tracey is looking for.

the Christian church and on racial issues, and
Both stories contain sociopolitical commentary on
the characters have relatively positive relationships with one another. The Short Stones are not
told in a linear fashion nor fiom a consistent point of view; they move around in time and enter
and exit different character’s thoughts to provide context and backstoiy. Neither story appears
include Satanism either explicitly or implicitly.
In other words, the works

‘“are not Similar in mood [or] details’... and, indeed, differ in

nearly every relevant way.” Mattery, 2007 WL 4258196, at *8, (quoting Reyher v. Children's
Television Workshop. 533 F.2d87,92(2d Cir. 1976)). “The overall feel" of the Short Stories “is
so distinct [from the Mirtiseries] that an ordinary observer would not regard” them as
substantially similar. Porto v. Cuirgis, 659 F. Supp. 2d 597,615 (S.D.N.Y. 2009); see also
Webhv. Stallone, SSS F. App*x .31,33 (2d Cir. 2014) (summary order) (no substantial similarity
.between “gunfire-riddled pure action flick” and “trickery-based true caper,” where both had
different plots, imagery, and types of characters); Williams, 84 F.3d at 589 (no substantial
similarity between “high-tech horror stories with villainous characters and gruesome bloodshed’’
on the one hand and “adventure stories [that], although suspenseful in places, have happy
endings”).

Scanned with CamScanner

Case l:17-cv-03489-VSB Document 89 Filed 09/30/19 Page 34 of 39

b. Characters
Plaintiff focuses on (he fact that the Ministries contains a pair of close female friends.
One of whom is African-American and one of whom is blond and white, just as the Fictionalized
Story does. (Am. CompU Doc. 9 at 72-73; Doc. 9-1 at 1,) The similarities end them, although
Plaintiffargues drat Julie and Andrea am similar in that they like to drink, tease, and flirt, («*);
they are funny, (id. at 30-40), and are affectionate, (id at 28-30).
But the concept of an interracial female friendship is not an Original one, and the “age
and race" ofa character are unpiotcctablc characteristics. Flaherty v. Fllardi, No. 03 Civ,
2167<LTSXHBP), 2009 WL 749570, at *6 (S.D.N.Y. Mar. 20,2009), qff’d, 460 F. App’x 66 (2d
Cir.2012). By the same logic, gender is also unprotectabie. Andrea is a “basic character
type,"_o blond, funny best friend who has a history with her friend’s significant other—whose
standard attributes do not warrant protection, even if, arguendo, they are shared by Julie in the
Miniseries. See. e.g, Allen, m F. Supp, 2d at 659 n.137,660 (no Substantial similarity between
two famous young wizards who receive fonnal education in wizardiy and Compete in year-long
wizard competitions, where the depiction of allegedly infringed character was only a“genefal
prototype"); Hogan, 48 F. Supp. 2d at 311-12 (no substantial similarity between two halfhuman, half-vampire characters with the same name and similar, general appearances, where on a
specific level they have different physical features and character interactions).
More to the point, “when the totality of the characters’ attributes and traits are
considered," Andrea and Julie are not, in fact, particularly alike. See Sheldon Abend Revocable
Tr. v. Spielberg, 748 F. Supp. 2d 200,209 (S.D.N.Y. 2010) (internal quotation marks omitted)
(no substantial similarity between two confined, single men, where one is a troubled teen who
watches television, plays video games, and listens to music, and (he other is a male of

Scanned with CamScanner

i.i/-cv-VJ40S-VbB Document aa MietJ U5»JU/.i» raye oj u. o„

-

indeterminate age who engages in no other pastimes). Andrea is a wealthy Dutch Huguenot

“

from South Africa in hcrmid-40s. while Julie is British and appears to be in her late twenties or
early thirties. No infrirntation about Julie's socioeconomic status is provided. Andrea comments
more than once that she does not care about others, and even Jem observes that she is often
inconsiderate. In contrast, Julie appears to care deeply for Rosemary, urging her to sec a
different doctor when she sees how the pregnancy is affecting Rosemary and confronting Guy
when she believes he is not protecting Rosemary's best interests. Any similarities between Julie
and Andrea are superficial, and "existfl only at a level of abstraction too basic to permit any
inference that defcndant[s] wrongfully appropriated any expression ofplaintiff’s ideas.” Allen,
739 F. Sopp. 2d at 660 (quoting Arden v. Columbia Pictures Indus.. Inc., 908 F. Supp. 1248,
1261 (S.DJ4.Y. 1995)).
Any similarities between Jerri and Rosemary are also' general ized and unprotcetiblc.
Neither their race nor their gender is protectable, and their personalities are strikingly different.
Although Jerri is described as engaging and open, the narrator repeatedly underscores her
shaipness and ability to defend herself against verbal attacks. Rosemary has no such edge—she
is naive and trusting; for example, she does not balk at Margaux Castavet’s inappropriate
behavior Occluding instructing Rosemary oh exactly when she and Guy should attempt to
conceive a baby), and she succumbs repeatedly to Guy’s demand that they keep seeing the
Castavds’ obstetrician, despite her instincts to the coStraiy.
• c. Other Uhprotectable Elements
Plaintiff's Amended Complaint contains 110 pages ofpurported “resemblances;” but
“random similarities scattered throughout the works cannot[by themselves support a firiding

,

Ofsubstantial similarity.” Allen, 739 F. Supp. 2d at 663 (citation omitted). Review of Plaintiff’s

Scanned with CamScanner

l

case l:17-cv-03489-VSB Document 89 Fiteaua/aww r-aa= — “•

“

list shows that nearly every instance of similarity alleged by Plaintiff either concerns an
to be a similarity at all.
unprotcctablc element, or to “an ordinary observer’* would not appear
See Gailo, 602 FJd at 66.
For example. Plaintiff points to the “presence of an interracial couple recently arrived tn
Paris”; although this element is present in the Miniseries, it is not present in either the True Story
or the Fictionalized Story. The narrator ofthe True Story does not mention a significant other,
while Jerri and Lance, in die Fictionalized Story, are both black. Plaintiff also points to the fact
that Guy is a writer and professor of English at a university in Paris, but none of the characters in
either Short Story possess these attributes-Jerri is described as having a teaching job, but the
subject she teaches is not specified.
Plaintiffalso contends the works share an African-American female character who is
“obsessed with a disappearance from an apartment in Paris;” the same character investigating the
disappearance of someone from a building in Paris; and the character's obsession With a
photograph. (Am. Corapl., Doc. 9at 29-30.) These attributes appear alike only at a distance and
only in general; upon closer examination, the disappearances at issue and the photographs are so
different no ordinary or discerning observer would register them as similar. As Judge Learned
Hand observed, “[ujpon any work.. .agreat number of patterns of increasing generality will fit
equally well; as more and more of the incident is left put.., [XJhere is a point in this series of
abstractions where they are no longer protected.” Rcyher, 533 F.2d at 91 (quoting Nichols v.
Universal Pictures Corp., 45 F.2d 119,121 (2d Cir. 1930), cert, denied 282US. 902 (1931)).
This principle applies to many of the other “random similarities," Allen, 739 F. Supp. 2d at 663,
Plaintiff cites to, including the “gray apartment,” (Am. Compl., Doe, 9 at 33—43); the presence
Of a mysterious couple, {id. at 35); and various themes,like fear and paranoia, {id. at 33,40),

Scanned with CamScanner

I

Case l:i7-cv-03489-VSB Document 89 Filed 09/30/19 Page 3/ ot

:

cynicism, (M at 48-50,53-54), arid .he past, passing of lime, and ilecangnature of UfeO* at
54-55,58-59), inspiration, (id at S6), someone acting sttangely, (Jd at 66-67), and blocking out
an unpleasant memory, (id at 68-67), None

of these, even taken together, are so original or

specific as to, constitute protectable expressions of ideas.
Other elements Plaintiff focuses on are simply scenes afaire that are standard in a story
about Americans in Paris: parties with cosmopolitan guests, (id at 42-46), walks through o
Paris neighborhoods, (id at 55-56); walking arm-in-arm,9 (id, Doc. 9-1 at 26-28); concerts and
nightclubs, (id at46-47,50-52); asking for directions and asking uparlee-vousanglais?rt'd,
Doc. 9-1 at: 6-10). See Williams, 84 F3d at 589 (“electrified fences, automated tours, dinosaur
nurseries, and uniformed workers” arc scenes afaire in a story about a dinosaur zoo); Walker V,
Time life Films, Inc,, 194 PM 44,50 (2d Cir. 1986) (elements such as foot chases and the
morale problems of policemen are scenes afaire ofpolice fiction); Hoehting v. Universal City
Studios, Inc., 618 F.2d 972,979 (2d Cir, 1980) (German beer ball, the phrase “HeU Hitler,” and
certain German songs are scenes afaire about Nazi-era Germany). Some elements are both
scenes afaire and elements from the public domain, such as depictions of the bridges on the
Seine: See Cempnt.Assocs. /n/7, 982 F.2d at 707. Short phrases like “since that nigtt,” {id,
Doc. 9 at 42-43), and “do you wait to walk,” (W, Doc, 9-1 at 26-28), are also not protectable.
See Lewinson, 659 F. Supp.2d at 568. the concept ofan artist having admirers (G and the party
guests watching him sing in the Short Story, and Guy being followed by his young students) is a
concept that appears over and over in works about such artists. Similarly, the concept of a cult

(the secret meetings Andrea’s father attends at the American Assembly in Paris in the

’Indeed, the Fictionalized Story even notes that Andrea and iCfitipicVed up the habit df walking ami ift arm fcom
“Parisian women decades ago.”

Scanned with CamScanner

case l:17-cv*03489-VSB Document »a t-tieu vw*u.** .

Fictionalized Stoiy and the Satanists in the Miniseries) is also not original.
eet even a de minimis
In sum. there are no “protcctiblc elements, standing alone " that m
level of similarity. Williams, 84 F.3d at 588 (emphasis omitted); see also Castle Rock Entm t,
150 F3d at 138-39. Accordingly. I find that because the differences between the works are so
pronounced." Ho reasonablejury eould find that the works arc substantially similar.” Hogan, 48
F.Supp.2dat31L
C.

Remaining Defendants

In Plaintiff's letter of September24,2019, she states that she did not receive Cinestar’s,
motion to dismiss until September 19,2019, and would have objected by the deadline had she
received it in time. (Pl.’s 9/24/19 Ltr. 3).16 However, Cinestar’s motion consisted only ofa
notice ofmotion that incorporated the arguments of the Lions Gate Defendants, and introduced
no new arguments.
Because the Claims relating to Defendants Cinestar and Liaison are identical to the claims
against the Lions Gate Defendants, and would therefore “necessarily fail for the same reasons”
detailed here, 1 find it appropriate to 1) grant Cinestar’s motion to dismiss, and 2) to dismiss
Liaison suaspome. Cintron v. Shield, No. 18-CV-1619 (RA), 2019 WL4194429, at *3
(SiD.N.Y, Sept 3,2019); see also Hecht v. Commerce Clearing House, Inc,, 897 F.2d 21,26 n.6
t

(2d Cir. 1990) (affirming district court’s dismissal ofcomplaint with respect to till defendants;
including one who had not appeared or moved, because the issues concerning him were
“substantially the same as those concerning the other defendants, and [plaintiff] had notice and a
M Opportunity to make out his claim[s]”).

10 “Pl.'s 9/24/19 Lfcr. "refers to the September 24.2019 letter from Plaintiff docketed on September 26.2019. (Doc.

88.)

Scanned with CamScanner

'-aae -t:i/-cv-03489-VSB Document 89 Fiiea us/auua ruye oa«u=>

:

D.

Dismissal With Prejudice

Claims brought pro se typically ore dismissed without prejudice to amend at least if “a
liberal reading oftlte complaint gives any indication that a valid claim might :bc stated. Chavis
v. Ctepp/itt,618FJd 162, f70(2dCir. 2010) (citation omitted). Here, however, not only Has
Plaintiff amended once, but a detailed comparison of the works demonstrates that there is no
amendment to the pleadings that would make the works themselves substantially similar.
Accordingly, Plaintiffs claims are dismissed with prejudice.
V,

Conclusion

For the foregoing reasons, the Lions Gate Defendants’ motion forjudgment on the
pleadings and Cinestar’s motion to dismiss are GRANTED. In addition, because there are no
facts specific to Defendant Liaison that establish a plausible claim of infringement, Plaintiffs
claim against Liaison is DISMISSED sua sponte.
Hie Clerk of Court is respectfully directed to terminate tile motions at Documents 42 and
80, to enterjudgment, and to close the case.
The Clerk of Court is respectfully directed to mail a copy of this Opinion & Order; to the
pro se Plaintiff.

SO ORDERED.
Dated: September 30,2019
New York, New York

Vernon S. Broderick
United States District Judge
i

Scanned with CamScanner

I

A
V UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF NEW YORK

!E(,EC'TRr: "•
s

<

•X

WILHELMINA “MINA” MONTGOMERY,
Plaintiff,
-against-

------------------------

•

“

-

17 CIVIL 3489 (VSB)

■irmRMENT
AGNIESZKA HOLLAND, et al..
Defendants.
■X

It is hereby ORDERED; ADJUDGED AND DECREED: That for the reasons
stated in the Court's Opinion and Order dated September 30,2019, the Lions Gate Defendants'
motion for judgment on the pleadings and Cinestar’s motion to dismiss are granted; in addition
because there are no facts specific to Defendant Liaison (hat establish a plausible claim of
infringement. Plaintiffs claim against Liaison is dismissed sua spent* accordingly, the case is
closed.
'Dated: New York, New York
September 30,2019
RUBY J. KRAJICK^o-.
Clerk oflCoui
BY:

Dcputy/Cferk

THIS DOCUMENT WAS E)fo/p t
ON THE DOCKET ON /6hT%t

1

Scanned with CamScanner

9
gutty

Reports

i

Utilities

Help

Log Out

CLOSED,ECF,PRO-SE

i

U.S. District Court
Southern District of New York (Foley Square)
CIVIL DOCKET FOR CASE #: I:17-cv*03489-VSB
Montgomery v. Holland et al
Assigned to: Judge Vernon S. Broderick
Cause: 28:1331 Fed. Question

Plaintiff
Wilhelmina "Mina” Montgomery

l

Date Filed: 05/09/2017
Date Terminated: 09/30/2019
Jury Demand: Plaintiff
Nature of Suit: 440 Civil Rights: Other
Jurisdiction: Federal Question
represented by Wilhelmina "Mina" Montgomery
c/o Monicci Montgomery
451 Kingston Ave.
Apt. E2S
Brooklyn, NY 11225
917/858-4714
PROSE

V.
Defendant
Agnieszka Holland
Defendant
NBC Television
TERMINATED: 04/18/2018

represented by Tom J. Fcrbcr
Pryor Cashman LLP
7 Times Square
New York, NY 10036
212-326-0194
Fax: 212-326-0806
Email: tferber@pryorcashman.com
LEAD ATTORNEY
Ross McCllntic Baglcy
Pryor Cashman LLP
7 Times Square
New York, NY 10036
(212)-421-4100
Fax: (212)-515-6953
Email: rbagley@pryorcashman.com
ATTORNEY TO BE NOTICED

)fZ2

3/24/2021,11:14 AM

Scanned with CamScanner

Case l:17-cv-03489-VSB Document 90 Filed 09/30/19 Page 1 of 1

UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF NEW YORK
•X

US DO
DOCUMJiN r
ELECTRON1C.--.',L\ HELD
DOC L:
DATE FILL’D:

WILHELMINA “MINA” MONTGOMERY,
Plaintiff,
-against-

17 CIVIL 3489 (VSB)

.nJDGMENT
AGNIESZKA HOLLAND, et al.,
Defendants.
X

It is hereby ORDERED, ADJUDGED AND DECREED: That for the reasons
stated in the Court's Opinion and Order dated September 30, 2019, the Lions Gate Defendants’
motion for judgment on the pleadings and Cinestar’s motion to dismiss are granted; in addition
because there are no facts specific to Defendant Liaison that establish a plausible claim of
infringement, Plaintiffs claim against Liaison is dismissed sua sponte; accordingly, the case is
ied.
Dated: New York, New York
September 30,2019

RUBY J. KRAJICK^^
Clerk of Couh

BY:

CD__J
Deputy/Clerk

ON THE DOCKET

j

